<html>
<title> - NOMINATIONS OF CLAUDE M. (``MICK'') KICKLIGHTER, TO BE ASSISTANT SECRETARY FOR POLICY AND PLANNING, DEPARTMENT OF VETERANS AFFAIRS AND JOHN A. GAUSS, PH.D., TO BE ASSISTANT SECRETARY FOR INFORMATION AND TECHNOLOGY, AND CHIEF INFORMATION OFFICER, DEPARTMENT OF VETERANS AFFAIRS</title>
<body><pre>[Senate Hearing 107-]
[From the U.S. Government Printing Office]


                                                              S HRG. 107-699
 
   NOMINATIONS OF CLAUDE M. (``MICK'') KICKLIGHTER, TO BE ASSISTANT 
 SECRETARY FOR POLICY AND PLANNING, DEPARTMENT OF VETERANS AFFAIRS AND 
  JOHN A. GAUSS, PH.D., TO BE ASSISTANT SECRETARY FOR INFORMATION AND 
   TECHNOLOGY, AND CHIEF INFORMATION OFFICER, DEPARTMENT OF VETERANS 
                                AFFAIRS
=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON VETERANS' AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION




                               __________

                             AUGUST 2, 2001

                               __________

       Printed for the use of the Committee on Veterans' Affairs








                       U. S. GOVERNMENT PRINTING OFFICE
81-941                          WASHINGTON : 2002
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001







                     COMMITTEE ON VETERANS' AFFAIRS

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman

BOB GRAHAM, Florida                  ARLEN SPECTER, Pennsylvania
JAMES M. JEFFORDS (I), Vermont       STROM THURMOND, South Carolina
DANIEL K. AKAKA, Hawaii              FRANK H. MURKOWSKI, Alaska
PAUL WELLSTONE, Minnesota            BEN NIGHTHORSE CAMPBELL, Colorado
PATTY MURRAY, Washington             LARRY E. CRAIG, Idaho
ZELL MILLER, Georgia                 TIM HUTCHINSON, Arkansas
E. BENJAMIN NELSON, Nebraska         KAY BAILEY HUTCHISON, Texas

                     William E. Brew, Chief Counsel

      William F. Tuerk, Minority Chief Counsel and Staff Director

                                  (ii)

  







                            C O N T E N T S

                              ----------                              

                             August 2, 2001

                                SENATORS

                                                                   Page
Rockefeller, Hon. John D. IV, U.S. Senator from West Virginia, 
  prepared statement.............................................     2
Specter, Hon. Arlen, U.S. Senator from Pennsylvania, prepared 
  statement......................................................     3

                               WITNESSES

Gauss, John A., Ph.D, to be Assistant Secretary for Information 
  and Technology, and Chief Information Officer, Department of 
  Veterans Affairs...............................................    12
    Prepared statement...........................................    13
    Questionnaire for Presidential nominees......................    14
    Response to written questions submitted by:
        Hon. Ben Nighthorse Campbell.............................    15
        Hon. Tim Hutchinson......................................    16
Kicklighter, Claude M. (``Mick''), to be Assistant Secretary for 
  Policy and Planning, Department of Veterans Affairs............     6
    Prepared statement...........................................     8
    Questionnaire for Presidential nominees......................     9

                                APPENDIX

Campbell, Hon. Ben Nighthorse, U.S. Senator from Colorado, 
  prepared statement.............................................    23

                                 (iii)

  


   NOMINATIONS OF CLAUDE M. (``MICK'') KICKLIGHTER, TO BE ASSISTANT 
 SECRETARY FOR POLICY AND PLANNING, DEPARTMENT OF VETERANS AFFAIRS AND 
  JOHN A. GAUSS, PH.D., TO BE ASSISTANT SECRETARY FOR INFORMATION AND 
   TECHNOLOGY, AND CHIEF INFORMATION OFFICER, DEPARTMENT OF VETERANS 
                                AFFAIRS

                              ----------                              


                        THURSDAY, AUGUST 2, 2001

                                       U.S. Senate,
                            Committee on Veterans' Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:30 p.m., in 
room SR-418, Russell Senate Office Building, Hon. John D. 
Rockefeller IV (chairman of the committee) presiding.
    Present: Senators Rockefeller, Akaka, Wellstone, Murray, 
Miller, Nelson, Specter, Thurmond and Hutchison.
    Chairman Rockefeller. This hearing will come to order. 
Senator, I understand you have some family here.
    Senator Miller. Yes. How did you know that? They are Braves 
fans, too.
    Chairman Rockefeller. Are they?
    Senator Miller. Like you.
    Chairman Rockefeller. Like me? Well, maybe we just ought to 
introduce them here right off the bat.
    Senator Miller. Well, my wife is here and my two grandsons.
    Chairman Rockefeller. Can they stand?
    Senator Miller. This is the last committee meeting I will 
ever get them to go to.
    Chairman Rockefeller. Are all three of you Braves fans?
    Senator Miller. Very much so.
    Chairman Rockefeller. I am now sufficiently emotionally 
happy that I can proceed with this hearing. The hearing will 
come to order, and we have, obviously, the last--is it 2 days 
or 2 weeks--of our session? Whatever it is, we have a lot to 
do, so I am going to be brief in my remarks. We are going to 
consider the nominations of John Gauss to be Assistant 
Secretary of Veterans Affairs for Information and Technology, 
and Mick Kicklighter, who is to be Assistant Secretary of 
Veterans Affairs for Policy and Planning. Those are both very 
complicated positions.
    Dr. Gauss, John, I extend a warm welcome to you and to your 
wife, Charlotte, if she is here. We are happy to have you. 
Computer technology within the VA, I suspect, is going to be 
something of a change from what you have been doing. Space and 
Naval Warfare Command in San Diego, and VA computer technology 
and IT, are not probably at the same level, but this is a 
hugely important time for that technology and therefore I am 
very glad that you are here.
    We have been criticized in the VA for the failure to 
protect financial and medical records. That is a subject that 
interests me beyond the scope of this committee. And we have 
been criticized for the delays in processing claims, which has 
to do, obviously, with technology. Some people have said that 
what we do makes the situation worse, rather than better. So, 
assuming that you will be confirmed, which I hope you will be, 
we will be looking upon you as a genuine architect, with very 
large responsibilities and enormous consequences for veterans 
everywhere in this country. A seamless set of processes is easy 
to say. I suspect you have done that, but I suspect it will be 
more difficult in our situation. So that is what I would say to 
you for the moment.
    Mick, you are, of course, no stranger to the VA, and I 
welcome you and your family, and I understand your wife Betty, 
your daughter Jane, and two grandchildren, Matthew and Richard, 
are here. Where are they?
    Mr. Kicklighter. Right here.
    Chairman Rockefeller. You guys do not even have to be 
Braves fans. I understand also that you have a friend named Tom 
Donnelly who is here, and where is he? OK, Tom.
    Is Senator Akaka here? Senator Akaka is here, and he is 
going to introduce you. But before any of this starts, I have 
to note that both of the nominees have completed their 
committee questionnaire for Presidential nominees, which will 
appear in the hearing record; also included will be letters 
from the Office of Government Ethics, acknowledging that each 
is in compliance with laws and regulations governing conflicts 
of interest, and I have reviewed the FBI reports. I am sure the 
ranking member has too, and we find no bar to either nominee's 
confirmation.
    [The prepared statement of Senator Rockefeller follows:]

 Prepared Statement of Hon. John D. Rockefeller IV, U.S. Senator From 
                             West Virginia

    Good afternoon. We have a very busy agenda today, with a 
confirmation hearing followed immediately by a meeting on 
pending legislation, so I will be brief in my remarks.
    We meet first today to consider the nominations of John 
Gauss to be Assistant Secretary of Veterans Affairs for 
Information and Technology, and Mick Kicklighter to be 
Assistant Secretary of Veterans Affairs for Policy and 
Planning.
    Dr. Gauss--John--I extend a warm welcome to you, and to 
your wife Charlotte. Computer technology within VA might not 
evolve at the same blistering pace that you confronted at the 
Space and Naval Warfare Command in San Diego, but this is a 
critical time for VA's information systems. VA has been 
criticized for its failure to protect private health and 
financial records, and for the delays in processing benefits 
claims that have been exacerbated, rather than eliminated, by 
new technology. Assuming that you are confirmed, we will look 
to you as the architect of a new VA information system--a 
seamless set of processes that will be able to grow and adapt 
to new needs and new technology. This will be a demanding and, 
perhaps, frustrating task, but one that is necessary if we are 
to meet the expectations in the slogan ``One VA.''
    Mick, you are, of course, no stranger to VA. I welcome you 
and your family, including your wife Betty, your daughter, 
Jane, and two grandchildren, Matthew and Richard. I understand 
that you also have a friend, Tom Donnelly, here with you today. 
My friend and colleague Senator Akaka is here to introduce you 
formally. I'm looking forward to hearing about how the Policy 
and Planning office can help VA's various offices develop a 
cohesive strategy to meet veterans' changing needs.
    I note that John and Mick have completed the Committee 
Questionnaire for Presidential Nominees, which will appear in 
the hearing record. Also included will be letters from the 
Office of Government Ethics acknowledging that each is in 
compliance with laws and regulations governing conflicts of 
interest. I have reviewed their FBI reports and find no bar to 
either nominee's confirmation.
    Now, I look forward to hearing from both of our nominees.

    Chairman Rockefeller. Now, before I let Senator Akaka make 
the introduction, I need to get you to stand, each of you, and 
raise your right hand so I can give you the oath. Do you swear 
or affirm that the testimony you will give in this hearing, and 
any written answers or statements that you provide in 
connection with this hearing, will be the truth, the whole 
truth, and nothing but the truth?
    Mr. Kicklighter. I do, sir.
    Mr. Gauss. Yes, sir.
    Chairman Rockefeller. Please be seated.
    Senator Specter, did you have anything you wanted to say 
before I turn it over to Senator Akaka?
    Senator Specter. Mr. Chairman, I just commend you for 
scheduling this hearing. I know that we have the nominations 
and are hopeful that we will be able to move promptly to give 
the Secretary the people he needs. We have very important 
substantive issues before us. In light of the heavy workload of 
the committee and what we have to do this afternoon, I will put 
the balance of my statement in the record.
    Chairman Rockefeller. I will do it both----
    Senator Specter. Just do not forget, tomorrow we are 
supposed to start a recess. [Laughter.]
    Chairman Rockefeller. So we will come back with batteries 
fully charged and verbiage in appropriate sequence, I hope.
    [The prepared statement of Senator Specter follows:]

      Prepared Statement of Hon. Arlen Specter, U.S. Senator From 
                              Pennsylvania

    Good afternoon. We have a lot of business to accomplish 
this afternoon--and we have a limited amount of time in which 
to accomplish this business. Therefore, I will be brief.
    Our purpose today is two-fold: to consider two nominations 
by, first, receiving testimony from them and then--the Chairman 
and I hope--voting to approve their nominations. Second, we 
meet today to markup and approve an extensive legislative 
agenda.
    I know the Chairman will summarize the legislation we will 
consider today in some detail. I will not, therefore, attempt 
to do that. I just take a moment to note one measure of 
particular importance to me: proposed increases in Montgomery 
GI Bill benefits.
    As the Committee's members know, I worked hard while I was 
Chairman to secure increases in Montgomery GI Bill benefits. 
With the help of now-Chairman Rockefeller and the Committee's 
members, we achieved some level of success; MGIB benefits went 
from $427 a month to the current level of up to $800--an 
increase of 87% during the four years I chaired the Committee.
    I am pleased that we continue to press ahead on this issue. 
And while the full complement of increases contained in the 
bill (S. 1114) I introduced on June 27, 2001 are not possible 
due to budgetary constraints, the provisions contained in the 
Chairman's mark take us two-thirds of the way there. I thank 
the Chairman for including these provisions--and for sharing my 
sense that Montgomery GI Bill increases are a first-priority 
item on this Committee's agenda.

    Chairman Rockefeller. Mick, both Senator Akaka and Senator 
Thurmond want to present you.
    Mr. Kicklighter. Thank you, sir.
    Chairman Rockefeller. So, if Senator Akaka would defer, 
which I am sure he will, to the senior position of Senator 
Thurmond, Senator Thurmond, we would be delighted to have you 
make that introduction, sir, to introduce Mr. Kicklighter.
    Senator Thurmond. Mr. Chairman, I am pleased to be here 
today to welcome our nominees, Admiral Gauss and General 
Kicklighter. I am delighted to have the privilege of 
introducing to the committee Mr. Claude M. ``Mick'' 
Kicklighter, who has been nominated to serve in the Department 
of Veterans Affairs as an Assistant Secretary of Veterans 
Affairs for Policy and Planning. This committee needs no 
introduction to General Kicklighter. He is known to the Senate, 
having been nominated for important positions within the U.S. 
Army, where he retired in 1991 with the rank of Lieutenant 
General. Members will also recall the magnificent job he did as 
director of the Department of Defense committee to commemorate 
the 50th anniversary of World War II.
    Later, as Deputy Under Secretary of the Army for 
International Affairs, General Kicklighter organized the 
committee to carry out the Korean War 50th Anniversary 
Commemoration.
    General Kicklighter is well-qualified to serve in this 
important position. As a retired officer, he is keenly aware of 
the needs of his fellow veterans. His professional experience, 
his work with veterans organizations, and his service in other 
non-profit foundations are a statement of his concern and his 
willingness to continue to serve his Nation and fellow 
citizens.
    Furthermore, he is no stranger to the Department of 
Veterans Affairs. General Kicklighter previously served in the 
Department--first as Deputy Under Secretary of Memorial 
Affairs, later heading the Office of Public and 
Intergovernmental Affairs.
    I congratulate General Kicklighter on this nomination and 
fully endorse him. I have known and worked with him for many 
years. I can personally vouch for his integrity and ability. I 
look forward to working with these nominees as they are serve 
the veterans of our Nation. I thank them for their appearance 
today and look forward to their testimony and prompt 
confirmation.
    Thank you, Mr. Chairman.
    Chairman Rockefeller. Thank you, Senator Thurmond.
    Senator Akaka?
    Senator Akaka. Thank you very much, Mr. Chairman. I feel it 
a great honor to come before the committee and thank you for 
this hearing, and I would say something about my long-time 
friend. So it is a pleasure for me to present Claude 
Kicklighter to the committee for confirmation as Assistant 
Secretary for Policy and Planning. I would also like to welcome 
Betty--Betty, it is good to see you here--to today's 
confirmation hearing, and your daughter Jane and grandsons 
Matthew and Richard, also here to support their grandfather.
    I first met Mick Kicklighter in 1984, when he was in the 
U.S. Army and stationed in Hawaii, and those were memorable 
days, because we were very close. We got to know his family and 
he got to know mine, and we were able to meet on many occasions 
because he worked very well with the community. Based on the 
many years I have known Mick, I have every confidence in his 
ability to be an effective Assistant Secretary for Policy and 
Planning at the Department of Veterans Affairs, and I fully 
support his confirmation.
    Mick has been the Acting Assistant Secretary for Public and 
Intergovernmental Affairs for the VA since January 24, 2001. He 
also serves as Director of Special Events in that office, a 
position to which he was assigned on October 22, 2000. Mick 
first joined VA as Deputy Under Secretary for Memorial 
Activities on April 7, 2000. Mick also served our Nation for 
many years in the U.S. Army. Mick developed his leadership 
skills, decisionmaking abilities, and sound judgment during his 
years in the military when he commanded at every level, from 
company through division.
    Mick returned to Hawaii in 1989, when he was assigned to 
command the U.S. Army-Pacific in 1989 to 1991. In July, 1991, 
he was designated as director of our Nation's effort to honor 
our World War II veterans during commemorations of the 50th 
anniversary of World War II, and that was a tremendous success 
because of Mick. It was a national holiday in Hawaii and across 
our country, and he did a tremendous job on that.
    From September, 1995 to July, 1999, Mick served as Deputy 
Under Secretary for the Army for International Affairs. Mick's 
extensive experience with and knowledge of veterans and 
military matters clearly indicate that he is an excellent 
choice to be Assistant Secretary for Policy and Planning at the 
Department of Veterans Affairs. As such, I am pleased to lend 
my support to Mick Kicklighter's confirmation and I urge the 
committee to act favorably on his nomination.
    I would also like to mention that I had the opportunity 
last week to meet with Dr. John Gauss, who has been nominated 
to be Assistant Secretary for Information and Technology at the 
Department of Veterans Affairs. His accomplishments through his 
career reflect his qualification for this position. As such, I 
support Dr. John Gauss' nomination to be Assistant Secretary 
for Information and Technology.
    Mr. Chairman, I thank you for holding this hearing and ask 
you to move these nominations as fast as we can through 
committee and to the floor of the Senate. Thank you very much 
for this opportunity to speak.
    Chairman Rockefeller. Thank you, Senator Akaka. Senator 
Zell Miller also wants to say a word.
    Senator Miller. Thank you, Mr. Chairman, and I, too, 
appreciate your commitment to moving these nominations forward, 
and I would like to convey my support for both these very fine 
nominees present here today. But I felt like I had to point 
this out and say a few words about it. There is no doubt that 
Mick Kicklighter is eminently qualified for this position and 
comes highly recommended by so many people who have worked with 
him. I just do not want it to be overlooked that this is a man 
who was born and raised in Glennville, GA, and who is a 
graduate of Mercer University in Macon. That also should make 
him highly qualified.
    Also, I must say this. Last week, one of Georgia's greatest 
warriors, one of this Nation's greatest warriors, came by to 
see me, Retired Marine General Raymond Davis, and he was 
wanting to make sure that this nominee was confirmed, and he 
wanted me to do my small part, and when General Davis speaks to 
me, General Kicklighter, I salute and try to do what he says. 
So welcome here today.
    Mr. Kicklighter. So do I, sir.
    Senator Akaka. Mr. Chairman, may I excuse myself? I am 
chairing another committee, on readiness. So thank you for this 
opportunity to be here.
    Chairman Rockefeller. Thank you, Senator Akaka. Are there 
any other comments?
    Senator Nelson?
    Senator Nelson. Well, first of all, I want to thank both of 
the nominees for being here today and to, as others have, 
welcome the families. It is clear that you are both eminently 
qualified for the positions for which you have been nominated, 
and I look forward to your testimony for these two vital 
positions, and am very anxious to see us move on your 
nominations so that we can give the Secretary the assistance 
that he needs in these important areas.
    Thank you, Mr. Chairman.
    Chairman Rockefeller. Mick, I have pointed out to the 
Senator from Georgia that my son's wife's mother was born in 
Milledgeville, GA. Do you suppose that will help me with 
Senator Miller?
    Mr. Kicklighter. I do. Yes, sir.
    Chairman Rockefeller. It should, don't you think?
    Mr. Kicklighter. Yes, sir. I do.
    Senator Miller. It would help you even more to get General 
Raymond Davis to support you. [Laughter.]
    Chairman Rockefeller. Please, gentlemen, proceed, whichever 
you prefer first. Why don't you go ahead, sir?

STATEMENT OF CLAUDE M. (``MICK'') KICKLIGHTER, TO BE ASSISTANT 
   SECRETARY FOR POLICY AND PLANNING, DEPARTMENT OF VETERANS 
                            AFFAIRS

    Mr. Kicklighter. Mr. Chairman and members of the committee, 
it is truly an honor and a privilege for me to appear before 
you today. I would like to begin by thanking Senator Thurmond 
and Senator Akaka and Senator Miller for their very strong 
endorsement. I have known all three of these men for many, many 
years, and they have been an inspiration to me and many 
millions of other Americans.
    Senator Akaka and Senator Thurmond are World War II 
veterans, and we know what a great generation that is. I also 
appreciate very much Senator Miller's very kind letter he sent 
to the chairman on my behalf, as well. Thank you, Senator 
Miller.
    I am deeply honored that President Bush would nominate me 
to become the Assistant Secretary for Policy and Planning in 
the Department of Veterans Affairs. I feel, with 36 years of 
continuous service in the U.S. Army and 9 years as a civil 
servant, I feel qualified, and look forward to continue to 
serve this great Nation in this position.
    This committee knows better than I do the challenges that 
face the Department of Veterans Affairs in the future and this 
next century. We all know that we must make major reductions in 
the time it takes to process claims. We know that we must 
provide a world-class health care system that goes across our 
Nation, and our veterans must have timely access to that 
system. Especially now, when we are losing so many of the 
greater generation, we must make sure that we have national 
cemeteries and State military cemeteries all across our land to 
provide for the burial needs of our veterans. These cemeteries 
must and should be maintained in a manner that they are a 
memorial to their service and sacrifice to our Nation.
    I would like to share with you, if I am confirmed, the 
priorities that I would pursue as the Assistant Secretary for 
Policy and Planning. First, I would work very hard to make a 
good strategic plan even better and provide a road map for the 
Department of Veterans Affairs that unifies us so that we can 
provide the kind of support to our veterans and their families 
that they have a right to expect. The right kind of goals and 
objectives will help us to be better stewards of the resources 
that you have entrusted to us, to provide that support.
    Second, I would welcome the opportunity to help the 
Secretary and the Deputy Secretary in developing the policies 
that we need to lead us into this next century. I know that the 
Secretary is the one who approves policy, but I think policy 
and planning has a responsibility for managing the process so 
that we move quickly and make adjustments. We also must analyze 
the policy, so that we are putting the right kind of policy in 
place that will provide the results to the veterans that are 
needed.
    The next priority would be working hand-in-glove with the 
Inspector General to evaluate how well VA programs are 
functioning and supporting our veterans. The Inspector General 
will primarily look at waste, fraud, and abuse and how well the 
system works. It would be our job to look at the programs to 
see how well we are delivering services to veterans that were 
intended to be delivered and how well we are following 
congressional intent.
    I would work very hard to ensure that we have a data base 
that is timely, accurate, and accessible, and that information 
would not only support this committee in its deliberations, but 
would support our planners and our decisionmakers. And then 
finally, we would look throughout our Nation, both in industry, 
in academia, and other government agencies, to look for the 
best management practices that should be adopted in VA.
    One of the things that we are doing is embracing the 
Baldrige criteria. We made some progress, but we need to make 
more progress to get the Baldrige criteria adopted throughout 
VA. We do benchmarking and look for best practices that we 
could bring into the VA on a more rapid basis and 
institutionalize those things that we feel would help us be 
better stewards and provide better support.
    I guess, Mr. Chairman, if I bring anything to this job, it 
is the fact that throughout my career I have been a team player 
and a team builder, and I would like to help the Secretary and 
the Deputy build a strong VA team, starting with building a 
strong team within policy and planning. That team would have 
strong relations and strong bonds with our board of directors, 
the Congress, with the other government agencies, Defense and 
Labor. Also, it would have strong bonds with the veterans 
service organizations and the veterans offices in all the 
States across the Nation.
    Sir, as you have heard, it was my great honor to have been 
selected in 1991 to help our Nation thank and honor the World 
War II veterans, their families, and those who served on the 
home front, and especially the families who lost loved ones in 
that war. If I learned anything out of that four-and-a-half 
year journey, it is how much we truly owe those veterans. Those 
men and women came home from that war, they said very little. 
They took off their uniforms, some went to school on the GI 
bill, but together they built this great, strong, beautiful, 
and free America that we are privileged to wake up in every 
morning. It has been said that any nation that forgets its 
veterans soon ceases to be a great nation, and I hope you will 
honor me with the opportunity to help our Nation to continue to 
show our veterans that we will never forget their service.
    Sir, in closing, I would like to thank my wife of 47 years 
and my family, who have provided tremendous support to me in 
our journey, in our service to our country. Mr. Chairman, thank 
you very much for the honor of appearing before this committee.
    [The prepared statement and biographical information of Mr. 
Kicklighter follow:]

Prepared Statement of Claude M. (``Mick'') Kicklighter, To Be Assistant 
   Secretary for Policy and Planning, Department of Veterans Affairs

    Mr. Chairman and Members of the Committee, thank you for 
the privilege and honor to appear before you today.
    I am deeply honored by the confidence President Bush has 
shown in nominating me to serve as the Assistant Secretary for 
Policy and Planning of the Department of Veterans Affairs.
    With almost thirty-six (36) years of continuous active 
duty, serving in the U.S. Army, followed by nine (9) years as a 
civil servant, I believe I have the background and experience 
necessary to perform the duties required of this position.
    As you well know, there are many important challenges and 
opportunities in this new century for the Department of 
Veterans Affairs. We must shorten the time it takes to process 
claims, and improve the quality of health care while delivering 
it in a more timely and accessible manner. We must also ensure 
that we have a veteran's cemetery in close proximity to 
veterans. These cemeteries must be a fitting memorial to our 
Veteran's service and sacrifice to our Nation.
    If confirmed, one of my top priorities will be to assist 
the Secretary and Deputy Secretary in implementing the 
requirements of the Government Performance and Results Act of 
1993. This will include making a good Strategic Plan even 
better. The VA Strategic Plan defines the priorities and future 
direction of our department. It clearly states the expected 
goals and outcomes of our programs and defines the measures we 
will use to assess our progress and accomplishments. The VA 
Strategic Plan is an integration of the plans of the Veterans 
Health, Benefits, and National Cemetery administrations, and is 
an executable road map to the future. It unites, coordinates, 
and integrates our efforts to provide the most professional and 
timely health care and benefits to Veterans and their families. 
The goals and objectives derived from the Strategic Plan will 
also help ensure that we are better stewards of the resources 
entrusted to us.
    A second priority will be to analyze existing policies and 
recommend to the Secretary changes that would improve the 
delivery of health care, benefits, and services to Veterans. 
Also to assist the Secretary in the development of new policies 
that would improve our ability to take better care of our 
Nation's Veterans, within the resources available.
    The third priority will be to continue building a complete, 
accessible, and current repository of information and 
statistics about Veterans. An accurate and timely source of 
Veteran's data and statistics will better support this 
Committee in its deliberations. Reliable information will 
ensure that the VA speaks with one voice and assists planners 
and decision makers in developing and improving the 
organization and its programs. With timely, accurate, and 
accessible information we can plan for the delivery of improved 
support to Veterans.
    My fourth priority will be to have an even stronger program 
evaluation capability, one that will evaluate how well VA's 
programs are meeting intended outcomes and how effectively they 
are providing for the current and future needs of Veterans. 
When deficiencies are encountered, we will ensure corrective 
action is taken in a timely manner.
    Finally, if confirmed I will assist the senior leadership 
to identify and institutionalize the best management and 
business practices available to improve the quality of care and 
services for our Nation's Veterans. We will continue to promote 
the use of the Baldrige criteria for organizational assessment 
throughout the Department. We will support VA organizations and 
facilities as they plan and conduct benchmarking studies to 
identify and bring into this department the best practices 
available.
    Based on my experience as a team player and team builder, 
if confirmed, I intend to assist Secretary Principi in building 
the most dedicated and capable VA team, which in turn, will be 
a strong partner with the Congress, the Administration, the 
Department of Defense, other Federal agencies, the Veteran 
Service Organizations, and the States Department of Veterans 
Affairs. The synergism from this strong team effort will 
enhance VA's service and support to Veterans.
    In 1991, it was a privilege and an honor to have been 
selected to lead the team that assisted our Nation in thanking 
and honoring our WWII Veterans and their families, and those 
that served on the home front, as we commemorated the 50th 
anniversary of that war. This four and a half (4\1/2\) year 
journey impressed upon me, even more, what we owe these men and 
women. They not only saved this Nation, but literally saved the 
world. They came home, took off their uniforms, some went back 
to school on the GI Bill, and together they built this strong, 
free and beautiful America that we are privileged to live in 
every day.
    It has been said, ``That any Nation that forgets its' 
Veterans, soon ceases to be a great Nation.'' If confirmed, I 
will do my best to assist this Nation in demonstrating to our 
Veterans and their families that they will not be forgotten.
    In closing, I would like to thank my wife of 47 years and 
my family for the great support that they have always provided 
in our journey of service to our nation.
    Thank you, again, for the privilege and honor of appearing 
before you today.
                                ------                                

                Questionnaire for Presidential Nominees
      part i--all the information in this part will be made public
    1. Name: Claude Milton Kicklighter, Sr.
    2. Address: McLean, VA 22101.
    3. Position: Assistant Secretary for Policy and Planning, 
Department of Veterans Affairs.
    4. Date of Nomination: 27 June 2001.
    5. Date of birth: 22 August 1933.
    6. Place of birth: Glennville, Georgia.
    7. Marital status: Married--April, 1954.
    8. Full name of spouse: Elizabeth Exley Kicklighter.
    9. Names and ages of children: Elizabeth Jane Kicklighter Palmer--
10/12/55; Claude Milton Kicklighter, Jr.--10/01/57; Richard Van 
Kicklighter--10/14/58.
    10. Education: Institution (including city, state), dates attended, 
degrees received, dates of degrees:
    George Washington University, Washington, DC; 09/73-08/74; Masters 
of Arts Degree in Management of National Resources from the School of 
Business Administration; 08/74.
    Mercer University, Macon, GA; 01/53-06/55; Bachelor of Arts/
Biology; 06/55.
    University of Georgia, Athens, GA; 09/52-12/52; N/A.
    Georgia Military College (Junior College), Millageville, GA; 09/51-
06/52; N/A.
    Emory-At-Valdosta (Junior College), Valdosta, GA; 08/50-05/51; N/A.
    Glennville Georgia High School, Glennville, GA; 09/46-05/50; 
Diploma--High School Diploma; 05/50
    11. Honors and awards: List all scholarships, fellowships, honorary 
degrees, military medals, honorary society memberships, and any other 
special recognitions for outstanding service or achievement:
          Distinguished Service Medal with two Oak Leaf Clusters
          Defense Superior Service Medal
          Legion of Merit with three Oak Leaf Clusters
          Bronze Star Medal
          Meritorious Service Medal with Oak Leaf Cluster
          Army Commendation Medal with four Oak Leaf Clusters
          Secretary of Defense Identification Badge
          Joint Chiefs of Staff Identification Badge
          Army General Staff Identification Badge
          Order of Aaron and Hur, awarded by the Chaplin's Corp
          Argentina Order of May
          French Order National Du Merite
          Korean Order of National Security Gugseon Medal
          Silver Honorary Order of Freedom from the Republic of 
        Slovenia
          Eisenhower Liberation Medal (presented by the U.S. Holocaust 
        Memorial Council)
          The Presidential Citizen Medal, 1995
          The Department of Defense Medal for Distinguished Public 
        Service, 1996
          Decoration for Exceptional Civilian Service from the 
        Secretary of the Army, 1998
          Distinguished Civilian Service Award from the Department of 
        Defense, 1999
    12. Memberships: List all memberships and offices held in 
professional, fraternal, business, scholarly, civic, charitable, and 
other organizations for the last 5 years and other prior memberships or 
offices you consider relevant:
          Elected to the Board of Habitat for Humanity, International 
        in February 1997. On 17 October 1998 was elected as Chair of 
        the Board. This is a non-profit, faith-based organization that 
        builds houses for the needy in 79 countries. I receive no 
        compensation, except partial reimbursement for expenses.
          Falls Church Episcopal Church, 1993 to present
          Enterprise Development International, summer 2000 to present
          Fort Shafter Officers' Club, 1989 to 1991
          Fort Myer Officer's Club, 1991 to present
          Association of the United States Army
          Veterans of Foreign Wars, Lifetime Membership
          American Legion, 1991-1995
          Disabled American Veterans, Lifetime Membership
          Serve on the Board of Directors of the International 
        Foundation. A non-profit, faith-based organization. July 1995 
        to present
          Juvenile Diabetes Research Foundation, June 2001 to present
    13. Employment Record: List all employment (except military 
service) since your twenty-first birthday, including the title or 
description of job, name of employer, location of work, and inclusive 
dates of employment:
    (a) Worked as a clerk in my father's grocery store in the summers 
while I was attending college. My father also had a farm and I spent 
part of my time working as a farmer on the farm. The store was named 
The Bargain Corner, located in Glennville, Georgia. Work there each 
summer from 1950-1955. I was working for my father until I was 
commissioned a 2nd Lieutenant, Field Artillery, U.S. Army, 18 October 
1955, and entered active duty in the Regular Army.
    (b) Retired from active duty 31 August 1991, after 35 years, 10 
months of continuous active service. Became a Department of the Army 
civil servant on 1 September 1991, as the Director of the Department of 
Defense committee to assist our Nation in thanking and honoring the 
WWII Veterans and their families, and especially the families that lost 
love ones in the war, as our Nation commemorated the 50th Anniversary 
of WWII. Employers: Department of the Army. September 1991 to July 
1996.
    (c) In July 1996 became the Deputy Under Secretary of the Army for 
International Affairs. Employer: Department of the Army. July 1996 to 
July 1999.
    (d) July 1999 became Chief of Staff of Value America, Inc., 
Charlottesville, VA, an E-Commerce company. July 1999 to March 2000.
    (e) April 2000 became Deputy Under Secretary of Memorial Affairs, 
National Cemetery Administration at the Department of Veterans Affairs. 
April 2000 to October 2000.
    (f) In October 2000 the office was transferred to the Office of 
Public and Intergovernmental Affairs. In January 2001 I was put in 
charge of the Office of Public and Intergovernmental Affairs until a 
new Assistant Secretary for Public and Intergovernmental Affairs was 
sworn in on 31 May 2001. October 2000 to June 2001.
    14. Military Service: List all military service (including reserve 
components and National Guard or Air National Guard), with inclusive 
dates of service, rank, permanent duty stations and units of 
assignment, titles, descriptions of assignments, and type of discharge:
    (a) While a student at Mercer University, Macon, Georgia, I joined 
a U.S. Army Reserve (February, 1954) and attended monthly drills at an 
Army Reserve unit in Macon, Georgia. As a result of my ROTC training, I 
was promoted to the rank of Corporal (E-4) when I enlisted. The 
following year, I was promoted to Sergeant (E-5). I continued to attend 
drills until I graduated from college and was commissioned a 2nd 
Lieutenant in the Army Reserve in June 1955, and at that time, I was 
discharged from the U.S. Army Reserve in my enlisted status, and was 
provided an Honorable Discharge.
    (b) 18 October 1955 I was commissioned a 2nd Lieutenant in the 
Regular Army and called to active duty where I served continuously for 
35 years and almost eleven months. Was retired with an Honorable 
Discharge on 31 August 1991. My official Resume as provided by the 
Office of General Officer Management, Department of the Army, Pentagon 
6 June 2001, follows and provides the assignments, schools, promotions 
and medals I was awarded during my military career.
    15. Government experience: List any advisory, consultative, 
honorary, or other part-time service or positions with Federal, State, 
or local governments other than listed above:
    When I left Federal service in July 1999, I was asked to be a 
consultant with the Department of the Army, without compensation, and I 
accepted the position. I was never asked to perform any service. This 
appointment began in October 1999 and expired in October 2000.
    16. Published writings: List titles, publishers, and dates of 
books, articles, reports or other published materials you have written:
    Wrote an article for Jane's Military describing NATO's Central 
European Pipeline operation in 1981. Received a check for $200.00, 
which I returned to the publisher.
    17. Political affiliations and activities
    (a) List all memberships and offices held in and financial 
contributions and services rendered to any political party or election 
committee during the last 10 years:
    I attended a dinner in honor of Senator John McCain in the Spring 
of 2000. 1 had known Senator McCain while he was on active duty, and a 
good friend hosted the dinner. I attended for personal reasons, not 
political. My wife and I both attended and contributed $500.00 per 
dinner.
    (b) List all elective public offices for which you have been a 
candidate and the month and year of each election involved: None.
    18. Future employment relationships
    (a) State whether you will sever all connections with your present 
employer, business firm, association, or organization if you are 
confirmed by the Senate: N/A.
    (b) State whether you have any plans after completing Government 
service to resume employment, affiliation, or practice with your 
previous employer, business firm, association or organization: N/A.
    (c) What commitments, if any, have been made to you for employment 
after you leave Federal service? N/A.
    (d) (If appointed for a term of specified duration) Do you intend 
to serve the full term for which you have been appointed? Yes.
    (e) (If appointed for indefinite period) Do you intend to serve 
until the next Presidential election? Yes.
    19. Potential Conflicts of Interest
    (a) Describe any financial arrangements, deferred compensation 
agreements, or other continuing financial, business, or professional 
dealings which you have with business associates, clients, or customers 
who will be affected by policies which you will influence in the 
position to which you have been nominated: None.
    (b) List any investments, obligations, liabilities, or other 
financial relationships which constitute potential conflicts of 
interest with the position to which you have been nominated: None.
    (c) Describe any business relationship, dealing, or financial 
transaction which you have had during the last 5 years, whether for 
yourself, on behalf of a client, or acting as an agent, that 
constitutes as potential conflict of interest with the position to 
which you have been nominated: See Ethics Agreement.
    (d) Describe any lobbying activity during the past 10 years in 
which you have engaged for the purpose of directly or indirectly 
influencing the passage, defeat, or modification of any Federal 
legislation or for the purpose of affecting the administration and 
execution of Federal law or policy: None.
    (e) Explain how you will resolve any potential conflicts of 
interest that may be disclosed by your responses to the above items. 
(Please provide a copy of any trust or other agreements involved.) See 
Ethics Agreement.
    20. Testifying before the Congress
    (a) Do you agree to appear and testify before any duly constituted 
committee of the Congress upon the request of such committee? Yes.
    (b) Do you agree to provide such information as is requested by 
such a committee? Yes.

    Chairman Rockefeller. Thank you very much for the very 
proud and fine statements, sir.
    Dr. Gauss?

STATEMENT OF JOHN A. GAUSS, PH.D, TO BE ASSISTANT SECRETARY FOR 
  INFORMATION AND TECHNOLOGY, AND CHIEF INFORMATION OFFICER, 
                 DEPARTMENT OF VETERANS AFFAIRS

    Mr. Gauss. Chairman Rockefeller, Senator Specter, members 
of the committee, it is indeed an honor to appear before you 
today as President Bush's nominee for Assistant Secretary for 
Information and Technology and Chief Information Officer of the 
Department of Veterans Affairs. I would like to thank President 
Bush for nominating me, Secretary Principi for requesting my 
nomination, and the committee for such expeditious scheduling 
of this hearing.
    Secretary Principi is a man of vision for our Nation's 
veterans, and I look forward to helping him achieve his vision 
if confirmed. During his testimony in front of Congress in 
January of 2001, the Secretary noted that information 
technology offers a means to break down bureaucratic barriers 
that interfere with quick and effective service. That same 
technology offers opportunities for breaking down walls between 
various elements of government. It also offers the opportunity 
to eliminate barriers within the VA itself.
    Today, VA has several obstacles to overcome to achieve the 
Secretary's vision in the area of information security, 
fragmented networks, integrating them into one VA-wide network, 
one VA registration for our veterans, and there are troubled 
ongoing programs within the department. I believe that I am 
qualified to help the Secretary break down those barriers and 
overcome those obstacles. Having recently retired from 32 years 
of active duty in the Navy, I have been dedicated to the 
defense of our Nation and to serving our men and women in 
uniform. It would be a high honor and distinct privilege to 
continue serving those same men and women in their military 
afterlife.
    While on active duty, I was responsible for providing 
sailors, soldiers, airmen and Marines with the best possible 
information technology to enable them to accomplish any 
assigned combat mission. Information technology proved to be a 
force multiplier by substantially reducing the decision cycle 
time for those in command, thereby creating a more effective 
combat force. If confirmed, I stand committed to you, the 
Secretary, and the President that I will approach the 
information technology problems at VA with the same dedication 
as when I was serving on active duty, and I commit to make 
information technology that same force multiplier, but in 
providing effective and prompt service for our veterans.
    I do not have a tactical plan here today. However, from a 
strategic point of view, there are five areas I plan to attack 
immediately if confirmed: First, complete the enterprise 
architecture road map for the future. Where should the VA be 
headed in this century? Two, integrate the disparate wide-area 
telecommunications networks to improve overall performance and 
responsiveness for our veterans. Third, implement a strong 
information security infrastructure to protect the privacy of 
our veterans and the financial information of the agency, 
which, Mr. Chairman, you mentioned in your opening remarks. 
Four, create a program management oversight process to help the 
information technology program managers deliver their products 
such that they meet requirements, are delivered on time, and 
come in on budget. Fifth, establish information technology 
metrics to continually measure our ability to meet our 
veterans' needs. Finally, I recognize the importance of the 
critical oversight role of both this committee and the House 
Veterans' Affairs Committee.
    Both committees have provided leadership and support to VA 
and to veterans programs. You have my commitment to work with 
you to achieve the goal of serving our veterans in a timely and 
effective manner. In closing, it is truly an honor for me to be 
here today. I stand ready to serve and look forward to any 
questions you may have.
    Thank you very much, Mr. Chairman.
    [The prepared statement and biographical information of Mr. 
Gauss follow:]
 Prepared Statement of John A. Gauss, Ph.D, To Be Assistant Secretary 
    for Information and Technology, and Chief Information Officer, 
                     Department of Veterans Affairs
    Chairman Rockefeller, Senator Specter, and members of the 
Committee, it is indeed an honor to appear before you today as 
President Bush's nominee for Assistant Secretary for Information and 
Technology, and Chief Information Officer of the Department of Veterans 
Affairs. I would like to thank President Bush for nominating me to 
serve in this position; Secretary Principi for requesting my 
nomination; and, the Committee for such expeditious scheduling of this 
hearing. Secretary Principi is a man of vision for our nation's 
Veterans, and I look forward to helping him achieve his vision, if 
confirmed.
    In his testimony before Congress on 18 January 2001, Secretary 
Principi stated, and I quote, ``Information technology can offer a 
means to break down the bureaucratic barriers that interfere with quick 
and efficient service to veterans as well as the walls dividing VA from 
her sister departments in the Federal government and, totally 
unacceptably to me, barriers within VA itself.'' Today, VA has several 
obstacles to overcome in order to achieve the Secretary's vision in the 
areas of information security, fragmented networks, one VA 
registration, and troubled ongoing programs such as VETSNET.
    I believe that I am qualified to help the Secretary break down 
those barriers and overcome those obstacles. Having recently retired 
from 32 years of active duty in the United States Navy, I have been 
dedicated to the defense of our nation and serving our men and women in 
uniform. It would be a high honor and distinct privilege to continue 
serving those same men and women in their military afterlife. While on 
active duty, I was responsible for providing our sailors, soldiers, 
airmen, and marines with the best possible information technology to 
enable them to accomplish any assigned combat mission. Information 
technology proved to be a force multiplier by substantially reducing 
the decision cycle time for those in command, creating a more effective 
combat force. If confirmed, I stand committed to you, the Secretary, 
and the President that I will approach the information technology 
problems at VA with the same dedication as when I was on active duty, 
and make information technology a ``force multiplier'' in providing 
effective prompt service to our Veterans.
    I do not have a tactical ``battle plan'' today; however, from a 
strategic perspective, there are five areas I plan to attack 
immediately:
    (1) Complete the Enterprise Architecture road map to the future;
    (2) Integrate disparate telecommunications networks to improve 
performance and responsiveness for our Veterans;
    (3) Implement a strong information security infrastructure to 
protect the privacy of our Veterans;
    (4) Create a program/project management process to oversee and help 
the VA information technology program/project managers deliver products 
that meet requirements, are delivered on time, and stay within budget; 
and,
    (5) Establish information technology metrics to continuously 
measure our ability to meet our Veterans' needs.
    Finally, I recognize the importance of the critical oversight role 
of both this committee and the House Veterans Affairs Committee. Both 
committees have provided leadership and support to VA and to Veterans' 
programs. You have my commitment to work with you to achieve the goal 
of serving our Veterans in a timely and effective manner.
    In closing, it is truly an honor for me to be here today. I stand 
ready to serve and look forward to any questions you may have. Thank 
you very much.
                                 ______
                                 
                Questionnaire for Presidential Nominees
      part i--all the information in this part will be made public
    1. Name: John A. Gauss.
    2. Address: Arlington, Va. 22207.
    3. Position: Assistant Secretary (Information and Technology) for 
the Department of Veterans Affairs.
    4. Date of Nomination: 17 July 2001.
    5. Date of birth: 28 September 1947.
    6. Place of birth: Salem, Mass
    7. Marital status: Married.
    8. Names and ages of children: Stepson: Clark Crawford, Age 32; 
Stepdaughter: Beverly Crawford, Age 34.
    9. Education: Institution (including city, state), dates attended, 
degrees received, dates of degrees:
    Cornell University, Ithaca, NY; 09/65-06/69; BS (Engineering 
Physics); 06/69
    Naval Post Graduate School, Monterey, CA; 09/76-03/80; MSEE, Ph.D. 
(EE); 03/80
    10. Honors and awards: List all scholarships, fellowships, honorary 
degrees, military medals, honorary society memberships, and any other 
special recognitions for outstanding service or achievement:
          United States Navy; NROTC Scholarship; 1965
          Department of Defense; Defense Distinguished Service Medal; 
        07/97
          Department of the Navy; Distinguished Service Medal; 05/01
          Department of the Navy; Legion of Merit; 07/94
          Department of the Navy; Legion of Merit; 10/92
          Department of the Navy; Legion of Merit; 08/89
          Department of the Navy; Meritorious Service Medal; 08/91
          Department of the Navy; Navy Achievement Medal; 09/82
          Department of the Navy; National Defense Service Medal; 09/90
          Department of the Navy; National Defense Service Medal; 07/69
          Department of Defense; Joint Meritorious Unit Award; 12/96
          Department of the Navy; Vietnam Service Medal; 11/72
    11. Memberships: List all memberships and offices held in 
professional, fraternal, business, scholarly, civic, charitable, and 
other organizations for the last 5 years and other prior memberships or 
offices you consider relevant:
    Lifetime member of the Armed Forces Communications and Electronics 
Association (AFCEA)
    Member of the Institute of Electrical and Electronics Engineers 
(IEEE)
    12. Employment Record: List all employment (except military 
service) since your twenty-first birthday, including the title or 
description of job, name of employer, location of work, and inclusive 
dates of employment:
    Consultant to the Department of Veterans Affairs: July 2001.
    13. Military Service: List all military service (including reserve 
components and National Guard or Air National Guard), with inclusive 
dates of service, rank, permanent duty stations and units of 
assignment, titles, descriptions of assignments, and type of discharge: 
On 01 July 1969, I was commissioned as an Ensign in the United States 
Navy and retired as a Rear Admiral (Upper Half) on 30 June 2001. 
Assignments included Division Officer and Department Head on USS 
Patterson (FF-1051); Operations Officer on USS Flint (AE-32); Executive 
Officer and Navigator on USS Conserver (ARS-39); Air ASW Project 
Officer at the Naval Surface Warfare Center, White Oak Md; Surface Ship 
Chief Engineer for the TOMAHAWK Weapons System at the Cruise Missiles 
Project Office; Program Manager for Navy Command and Control Systems 
Afloat at the Space and Naval Warfare Systems Command; Program Director 
for Navy Command Systems at the Space and Naval Warfare Systems 
Command; Commander of the Joint Interoperability and Engineering 
Organization, and Deputy Director for Engineering at the Defense 
Information Systems Agency; Director of Allied Interoperability and 
Fleet Requirements in the Office of the Chief of Naval Operations; and, 
Commander of the Space and Naval Warfare Systems Command until 
retirement. See attached DD-214.
    14. Government experience: List any advisory, consultative, 
honorary, or other part-time service or positions with Federal, State, 
or local governments other than listed above: None.
    15. Published writings: List titles, publishers, and dates of 
books, articles, reports or other published materials you have written:
    Aligned for the Future, Sea Power Magazine, March 2001 edition.
    16. Political affiliations and activities
    (a) List all memberships and offices held in and financial 
contributions and services rendered to any political party or election 
committee during the last 10 years: None.
    (b) List all elective public offices for which you have been a 
candidate and the month and year of each election involved: None.
    17. Future employment relationships
    (a) State whether you will sever all connections with your present 
employer, business firm, association, or organization if you are 
confirmed by the Senate: N/A.
    (b) State whether you have any plans after completing Government 
service to resume employment, affiliation, or practice with your 
previous employer, business firm, association or organization:
    I intend to remain as a member of AFCEA and IEEE.
    (c) What commitments, if any, have been made to you for employment 
after you leave Federal service? None.
    (d) (If appointed for a term of specified duration) Do you intend 
to serve the full term for which you have been appointed? N/A.
    (e) (If appointed for indefinite period) Do you intend to serve 
until the next Presidential election? Yes.
    18. Potential Conflicts of Interest
    (a) Describe any financial arrangements, deferred compensation 
agreements, or other continuing financial, business, or professional 
dealings which you have with business associates, clients, or customers 
who will be affected by policies which you will influence in the 
position to which you have been nominated:
    See Part II, paragraphs 7 & 8.
    (b) List any investments, obligations, liabilities, or other 
financial relationships which constitute potential conflicts of 
interest with the position to which you have been nominated:
    See Part II, paragraphs 7 & 8. Also, see attached Ethics Agreement.
    (c) Describe any business relationship, dealing, or financial 
transaction which you have had during the last 5 years, whether for 
yourself, on behalf of a client, or acting as an agent, that 
constitutes as potential conflict of interest with the position to 
which you have been nominated: None.
    (d) Describe any lobbying activity during the past 10 years in 
which you have engaged for the purpose of directly or indirectly 
influencing the passage, defeat, or modification of any Federal 
legislation or for the purpose of affecting the administration and 
execution of Federal law or policy: None.
    (e) Explain how you will resolve any potential conflicts of 
interest that may be disclosed by your responses to the above items. 
(Please provide a copy of any trust or other agreements involved.)
    See attached Ethics Agreement.
    19. Testifying before the Congress
    (a) Do you agree to appear and testify before any duly constituted 
committee of the Congress upon the request of such committee? Yes.
    (b) Do you agree to provide such information as is requested by 
such a committee? Yes.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Ben Nighthorse Campbell 
                            to John A. Gauss
    Question 1. The 2001 VA Performance Plan Means and Strategies 
states that it is working on developing a strategy to improve timely 
access to patient information and records by speeding up development of 
the Government Computer-based Patient Records (GCPR) program. As I 
understand, this is an interagency program designed to share military 
DoD, VA and Indian Health Service Records.
    Are you familiar with the program? If not, could you look into it 
and report back to me on what plans you might have to implement and 
utilize the program? And, as Assistant Secretary would you be committed 
to working toward DoD-VA information sharing initiatives?
    Answer. I am familiar with the GCPR program. Ideally, the GCPR 
program would be able to exchange patient information between DoD, VA 
and Indian Health Service (IHS) medical systems in such a manner that a 
physician would have a single medical record to examine. Unfortunately, 
there are different data definitions used by each system. Further, due 
to the nature of the current DoD Composite Health Care System (CHCS I), 
two-way transmission is not possible at this time.
    The Veterans Health Administration (VHA) has developed a capability 
whereby a physician can access patient records from any VA Hospital. 
For the near term, GCPR is designed to accept a daily, one-way 
transmission of DoD patient data. GCPR can then be connected to the VHA 
medical systems and present patient data as if it were just another VA 
Hospital, except the data will be presented in a DoD format. In the 
mid-term, when the DoD next generation medical system (CHCS II) comes 
on line, we will work with DoD to make this type of data exchange two-
way. As an adjunct to the DoD-VA mid term efforts, we will pursue the 
mid term solution with IHS beginning in FY02.
    For the long term, we need to standardize our medical data 
definitions across government health care systems to enable the 
ultimate goal of an integrated patient record to be achieved. VHA has 
been working closely with the IHS to ensure that IHS can capitalize on 
advancements made between DoD and VA medical system data exchange.
    The near term phase of GCPR is in the final stages of development. 
Once the capabilities of the near term GCPR are proven, VA will deploy 
GCPR to obtain the near term benefits discussed above. As we prove this 
capability, and as CHCS II deploys, we will develop a detailed plan to 
achieve the mid term solution with IHS participating as a full partner.
    As the VA Assistant Secretary for Information and Technology, I am 
committed to working with ail government agencies to define and share 
information that will enhance the operation of all interested parties. 
Examples of the type of mutually beneficial data sharing I will pursue 
are listed below.
    1. Improved data transfer from DoD to the Veterans Benefits 
Administration (VBA) through automated transfer of medical record 
information at the time of a service member's separation or discharge 
to expedite determining medical and disability benefits eligibility.
    2. Improved data transfer from DoD to VBA through enhanced 
automated transfer of personnel and payroll data to improve servicing 
GI loans and insurance conversions. This can be accomplished through 
effectively implementing electronic interfaces from the Defense 
Integrated Military Human Resource System (DIMHRS) and Defense 
Personnel Records Imaging System (DPRIS) to appropriate VA's benefits 
systems.
    3. Shared ordering of pharmaceuticals and medical/surgical supplies 
through information technology solutions may enable DoD and VA to 
improve service to both active duty members and veterans, and could 
potentially save money for both Departments.
    4. Improved data standardization efforts between DoD and VA could 
offer further opportunities to improve service and reduce cost.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Tim Hutchinson to John 
                                A. Gauss
    Question 1. A strong relationship between the Department of Defense 
and the Department of Veterans Affairs is critical in ensuring that our 
veterans receive the care and service that they deserve. Do you believe 
that it is important that the DoD and VA continue to build on efforts 
to share resources and solutions?
    Answer. I believe it is essential that the Department of Veterans 
Affairs (VA) and the Department of Defense (DoD) find ways to provide 
the best possible service to our military men and women, both while on 
active duty and following their service to our country. This would 
include sharing resources and solutions where it made sense to do so. 
There are several examples where VA and DoD could make significant 
improvements in service to our active duty members and our veterans. 
They include:
    1. Improved data transfer from DoD to the Veterans Benefits 
Administration (VBA) through automated transfer of medical record 
information at the time of a service member's separation or discharge 
to expedite determining medical and disability benefits eligibility.
    2. Improved data transfer from DoD to VBA through enhanced 
automated transfer of personnel and payroll data to improve servicing 
GI loans and insurance conversions. This can be accomplished through 
effectively implementing electronic interfaces from the Defense 
Integrated Military Human Resource System (DIMHRS) and Defense 
Personnel Records Imaging System (DPRIS) to appropriate VA's benefits 
systems.
    3. Improved data sharing of medical records will greatly enhance 
clinical care to our veterans. This type of data sharing could 
facilitate workload balancing between DoD and VA hospitals that are 
geographically collocated and thereby provide better medical service to 
both active duty members and veterans.
    4. Shared ordering of pharmaceuticals and medical/surgical supplies 
through information technology solutions may enable DoD and VA to 
improve service to both active duty members and veterans, and could 
potentially save money for both Departments.
    5. Improved data standardization efforts between DoD and VA could 
offer further opportunities to improve service and reduce cost.
    Question 2. The Government Computer-based Patient Record Initiative 
(GCPR) is aimed at improving interoperability between the information 
systems of the VA and DoD. Can you comment on the recent GAO report 
criticizing the DoD and VA for mismanagement of the GCPR program?
    Answer. GCPR started as an initiative to implement direction 
contained in Presidential Review Directive 5. Ideally, the GCPR program 
would be able to exchange patient information between DoD, VA and 
Indian Health Service (IHS) medical systems in such a manner that a 
physician would have a single medical record to examine. Unfortunately, 
the detailed technical requirements for achieving this vision were 
never formally established. In addition, the Program Manager for GCPR 
was not empowered by all sponsoring activities involved with GCPR to 
make the necessary program management decisions.
    In my opinion, the process for overseeing programs in their 
execution phase needs improvement across all VA Information Technology 
programs. In my opening statement at my confirmation hearing, I 
discussed five near term strategies that I would pursue, if confirmed.
    1. Complete the Enterprise Architecture road map to the future;
    2. Integrate disparate telecommunications networks to improve 
performance and responsiveness for our veterans;
    3. Implement a strong information security infrastructure to 
protect the privacy of our veterans;
    4. Create a program/project management process to oversee and help 
the VA information technology program/project managers deliver products 
that meet requirements, are delivered on time, and stay within budget; 
and,
    5. Establish information technology metrics to continuously measure 
our ability to meet our veterans' needs.
    Four of these five strategies apply to GCPR and are in the process 
of being implemented. Specifically, the GCPR program manager is 
required to re-baseline the program to address a near term, mid term 
and long term solution to the patient record problem. This rebaselining 
will be approved by me and must occur prior to the expenditure of 
FY2002 funding. Once rebaselined, I will conduct periodic in-process 
reviews to ensure that cost, schedule and performance requirements are 
maintained.
    Unfortunately, there are different data definitions used by the 
DoD, VA and IHS medical systems. Further, due to the nature of the 
current DoD Composite Health Care System (CHCS I), two-way transmission 
is not possible at this time. In view of these facts, the strategy for 
rebaselining is to evolve GCPR as follows. The Veterans Health 
Administration (VHA) has developed a capability whereby a physician can 
access patient records from any VA Hospital. For the near term, GCPR is 
designed to accept a daily, one-way transmission of DoD patient data. 
GCPR can then be connected to the VHA medical systems and present 
patient data as if it were just another VA Hospital, except the data 
will be presented in a DoD format.
    In the mid-term, when the DoD next generation medical system (CHCS 
II) comes on line, we will work with DoD to make this type of data 
exchange two-way. As an adjunct to the DoD-VA mid term efforts, we will 
pursue the mid term solution with IHS beginning in FY02.
    For the long term, we need to standardize our medical data 
definitions across government health care systems to enable the 
ultimate goal of an integrated patient record to be achieved.
    The near term phase of GCPR is in the final stages of development. 
Once the capabilities of the near term GCPR are proven, VA will deploy 
GCPR to obtain the near term benefits discussed above.
    I believe the actions we are taking with the oversight of GCPR are 
prudent and will lead to achieving the intended results.

    Chairman Rockefeller. Thank you, Dr. Gauss and Mr. 
Kicklighter. I want to ask you a question that is hard to 
answer, probably impossible to answer, but which will help me 
understand you both better. We have been through a tax cut that 
will last 10 years. Spending on all fronts is going to be a 
terrible worry. I worry about the VA and what money will be out 
there 2 or 3 or 5 years from now. You are policy and planning, 
and you are technology IT. When a policy planner sits down to 
take a plan and refine it, you are working within the world of 
what you want to have happen. There is no other way you can do 
it, and you complete that plan to the best of your ability, and 
it is a substantial move forward. So that is part one.
    Part two, the VA is the second largest agency in the 
Federal Government, and there are a lot of people, many of them 
at fairly high levels, who have been there for a very long 
time, who say:

    Oh, you know, Claude Kicklighter is here and he has got a 
very high position, but he is going to be here for a number of 
years, and I will be here after he goes.

    And that brings in, in talking to both of you, the 
immutable question of how does a new person coming into 
office--not new, either of you, in your fields or this work, 
but new in your positions--when you run up against the 
resistance of people who, one, because they are human beings, 
resist change even though they might know change is for the 
better.
    Second, the whole question in a large bureaucracy of what 
gets decided, approved, at the top, to getting it to filter 
down--the example I always use and then I will stop my 
question, it is already long--is there is something in health 
care which administers Medicaid and Medicare called HCFA, the 
Health Care Financing Administration. Congress has set up a 
brilliant system wherein, when a new person goes in to head 
those 4,000 consummate bureaucratic detail experts, that we 
only allow them to take five people with them, which is like 
saying to him or her, ``You cannot get the job done, because 
you will not be able to take what you want to do and enforce it 
down through the bureaucracy.'' Now, that is a little different 
situation. You are not under a stricture, but you are under a 
much--4,000 to 200,000-plus people is a big difference.
    So my question is how do you programmatically, 
psychologically, in terms of your personality, in terms of your 
determination that you now have to change things and make them 
better and work better for veterans--you both expressed that 
very clearly and eloquently--what do you do when you come up 
against the inevitability of that? How do you handle it?
    Mr. Kicklighter. Let me try to answer that, Mr. Chairman. 
One thing is clear, in policy and planning, I have met some 
very capable people, including senior leadership and other 
employees. Certainly I would not try to operate without taking 
full advantage of the great talent that is there. But the main 
challenge would be always to take a look and see what is the 
support, whether it be health care benefits or cemeteries, what 
is the health care that you want to provide to the veterans in 
Hometown America, and then try to develop the programs that 
will provide that needed support. And it has to be work between 
both the planners, the policy people, and the financial 
management folks, and all the administrations. In the case of 
health care, it would be working with the health care 
administration. But as a team, to analyze and to see, within 
the constraints of what resources are available, what is the 
best possible support that you can provide to the veteran or VA 
employees in the field? Now, there may be some tough calls that 
the senior leadership has to make, and it may be some tough 
calls that must come back to the Congress. Our job would be to 
try to focus on providing the best support possible to the 
greatest needs of our veterans and their families. That 
requires a lot of team effort--building the team--analyzing and 
making sure that you have good data. You know that the results 
that you have planned for the veterans, and you must analyze, 
to ensure you are achieving the kind of results you intended, 
and you do this by checking, consulting with our board of 
directors, staffers here in the Congress, with veterans service 
organizations, with the States. We need to get as much input as 
we can as rapidly as we can to ensure we are building the best 
program possible to support the veterans. There maybe 
restraints that might not give the veterans everything you 
intended.
    Chairman Rockefeller. My time has expired and I am going to 
followup on that question with Dr. Gauss and also with you on 
my second round of questions.
    Senator Specter?
    Senator Specter. Thank you, Mr. Chairman. Dr. Gauss, as 
Assistant Secretary for Information and Technology, how would 
your service in the United States Navy be of assistance?
    Mr. Gauss. Senator, for the past 21 years, I was an 
engineering duty officer, managing acquisition of weapons 
system and information technology systems, working in the 
predominantly civil service environment. My last job was 
command of a Navy 400-person organization; 300 were military, 
over 8,000 were civil servants. So I have a lot of experience 
in the technology domain and in management of our senior civil 
servants and junior civil servants over the past 21 years, and 
I believe that is directly translatable to this job, should I 
be confirmed.
    Senator Specter. Well, when we talk about technology, we 
are talking about the application of the rapidly moving 
mechanisms for bringing the information age to bear. Would you 
characterize your background with the Navy as putting you on 
top of these issues?
    Mr. Gauss. Yes, sir, I would.
    Senator Specter. I note you have a Ph.D. in electrical 
engineering. To what extent is that a qualification, in your 
judgment, to being Assistant Secretary for Information and 
Technology?
    Mr. Gauss. Sir, because the technology is moving as fast as 
you noted, it is important to have a full understanding of what 
the risks are for making decisions on which technology to 
choose and how you manage that for moving into the future. So 
that educational background, coupled with experience 
background, helps in making those types of risk management 
decisions.
    Senator Specter. Mr. Kicklighter, as a lieutenant general 
in the Army, a similar question: how would that experience be 
applicable to the duties and responsibilities of Assistant 
Secretary for Policy and Planning?
    Mr. Kicklighter. Well, sir, most of my military career has 
been formulating policy and doing planning, and producing 
results from the policy development and the planning. I feel 
like that kind of experience very adequately prepares me for 
this job.
    Senator Specter. I note, Mr. Kicklighter--we call you 
Mister now, instead of General, and Dr. Gauss, we call you 
Doctor now, instead of Admiral--I note the presence of ``sir'' 
as you talk. I do not think that deference is necessary for 
just mere Senators. My chief of staff is a West Point grad. I 
have quite a number of West Point and Annapolis grads in my 
organization. Do you think the Secretary is overdoing it a 
little in bringing two top-notch secretaries in like you, Mr. 
Kicklighter, and Dr. Gauss, with military backgrounds?
    Mr. Kicklighter. No, sir, I do not.
    Senator Specter. That is not a trick question. [Laughter.]
    Mr. Kicklighter. As you may recall in my opening remarks, I 
think probably some of the most formidable and challenging and 
rewarding time of my career is the four-and-a-half years I 
spent in helping our Nation thank and honor our World War II 
veterans. I got to know very personal and up close that great 
generation. It had a tremendous impact on me and my respect for 
veterans, and I feel that dedication and affection that I bring 
to this job from that 4\1/2\ years.
    Senator Specter. How about being Chairman of the Board of 
Habitat for Humanity? Does that give you some special insights?
    Mr. Kicklighter. Well, as you know, it is a faith-based 
ministry that is trying to eliminate poverty housing, and we 
certainly want to eliminate poverty housing for our veterans 
and any other American.
    Senator Specter. Dr. Gauss, do you think that this heavy 
emphasis on military background is sort of counter-balanced by 
one man from the Army and one man from the Navy?
    Mr. Gauss. Yes, sir. [Laughter.]
    Senator Specter. Dr. Gauss, a simple yes would have been 
sufficient. [Laughter.]
    You men have outstanding records. I think Secretary 
Principi is lucky to have you. I know Chairman Rockefeller and 
the rest of us want to get you on the job. That is why Senator 
Rockefeller has expedited this hearing--whoops. My red light 
went on. I will stop right there. Thank you.
    Chairman Rockefeller. Senator Nelson?
    Senator Nelson. Thank you, Mr. Chairman.
    General Kicklighter, you mentioned that your second 
priority in your written testimony, if confirmed, would be to 
analyze existing policies and recommend to the Secretary 
changes that would improve the delivery of health care benefits 
and services to the veterans, and you also indicated that you 
do not have a tactical approach necessarily, more strategic in 
nature.
    Mr. Kicklighter. Yes, sir.
    Senator Nelson. And I wondered--so my question truly is 
tomorrow, when you speak to Secretary Principi, what are you 
going to talk about? What are you going to make in the way of 
recommendations to him as to how to develop a tactical approach 
to analyzing these existing policies and make the 
recommendations as it relates to efficiency and the delivery of 
health care?
    Clearly, everybody in the veterans community continues to 
look for improvements in this area. Do you have anything in 
mind as to what you might ask tomorrow?
    Mr. Kicklighter. Senator, I have had good guidance from 
both the Secretary and the Deputy about what they expect me to 
do in this job, and I do not expect to go back to them tomorrow 
and tell them what I plan to do. But I do plan to get back to 
them very soon, and I would like to tell you that a procedure 
that they have put in place for managing policy development is 
something called the Strategic Management Council. The Council 
is chaired by the Deputy and is co-chaired by the Assistant 
Secretary for Policy and Planning and Assistant Secretary for 
Financial Management. It meets on a biweekly basis and it looks 
at the policy we have, looks at analyzing, making improvements, 
and developing existing and new initiatives.
    I think that is going to serve us extremely well. It will 
move decisionmaking along very rapidly. It will give us 
feedback on policy that needs to be corrected, and I would tell 
the Secretary that I would like to see the procedure work. 
Decisions on policy, as you well know, Senator, rest with the 
Secretary. But this procedure will bring to the Secretary very 
quickly the kind of decisions that we need to make on policy, 
and if they need to come to Congress for policy decisions, they 
will be done.
    Senator Nelson. As you mentioned, being interested both in 
being involved as a team player, but also a team builder, that 
a great deal of the Secretary's views may, in fact, be shaped 
by your recommendations or by this policy group.
    Mr. Kicklighter. Yes, sir. As you know, Senator, I have not 
performed in this job and, if confirmed, I eagerly await the 
opportunity to get into it and learn as much as I can very 
rapidly, and then become a very active player. But I want to 
make sure I have got a full deck of knowledge and the 
recommendations that I am making are sound and based on good 
analysis and recommendations from the staff there.
    Senator Nelson. Thank you.
    Dr. Gauss, privacy is one of the biggest issues, and you 
have already referenced the importance of having information 
technology at your fingertips. Have you thought of any ways--
are you going to be directing your efforts toward protecting 
the privacy of veterans' health care records so that they 
somehow do not get viewed on the Internet? Obviously, everybody 
is worried about making sure that your personal records, 
personnel records--in this case, medical records--are 
maintained with strict privacy.
    Mr. Gauss. Yes, sir. It was one of the five areas that I 
mentioned that I would like to attack immediately, should I be 
confirmed. Protecting information with this technology is 
somewhat complex. It involves protecting your communications, 
your computers, your applications and your data. I would like 
to work with the rest of the staff at VA to propose to the 
Secretary a wide-reaching information assurance policy with 
some changes in how we build our technology.
    Senator Nelson. So you have already had your chance to take 
at least a brief look, where you have made up your mind that 
there may be some areas where you can make some improvements?
    Mr. Gauss. Oh, yes, sir. Absolutely.
    Senator Nelson. Very good. Thank you very much.
    Thank you, both.
    Chairman Rockefeller. Senator Nelson, is that it?
    Senator Nelson. Thank you. Thank you, Mr. Chairman.
    Chairman Rockefeller. I want to point out that--and I do 
this delicately, having three formidable Senators looking at me 
rather carefully--that we, in fact, have a quorum and we can 
move to our bills, or we can do what any decent chairman would 
do, which would be to call on the three of you.
    Senator Murray. That would be decent. [Laughter.]
    Senator Wellstone. Do what comes easy to you. Do not be 
decent. [Laughter.]
    Senator Specter. Mr. Chairman, I notice a waiver of rights. 
[Laughter.]
    Senator Wellstone. But that is because we have two 
excellent people. We look forward to working with you.
    Chairman Rockefeller. All right. With that--and I will 
followup with post-hearing questions--I think all of us will 
followup; I certainly will, because I did not get all that I 
wanted, obviously, from my questions. Therefore, we will 
followup with questions regardless of what happens here, anyone 
who wants to, and I know you will reply promptly. But I will 
declare this part of the hearing at an end. We will now move to 
the second part of our agenda. So you can both be seated, and I 
thank you very, very much.
    Mr. Kicklighter. Thank you, Mr. Chairman.
    Mr. Gauss. Thank you, Mr. Chairman.
    [Whereupon, at 3:20 p.m., the committee proceeded to other 
business.]
                            A P P E N D I X

                              ----------                              

 Prepared Statement of Hon. Ben Nighthorse Campbell, U.S. Senator From 
                                Colorado
    Mr. President, thank you for holding this hearing on the 
nominations of Mick Kicklighter and John Gauss.
    Mr. Kicklighter, I understand you come highly recommended by 
Senator Thurmond for the position of Assistant Secretary for Policy and 
Planning. That is a good recommendation.
    And, Mr. Gauss, your experience in communications, computers and 
intelligence systems for the Navy makes you highly qualified to be 
Assistant Secretary for Information and Technology.
    Secretary Principi's commitment to our veterans has been 
encouraging. His own appointment is a powerful sign that our Department 
of Veterans Affairs is being run by someone who truly has the welfare 
of our veterans at heart. Now, I believe it is important that we move 
ahead with these nominations and give Secretary Principi some help in 
tackling the tough job ahead.
    Thank you, Mr. Chairman.

                                   - 

</pre></body></html>
